CERTIFICATE OF WORD COUNT
NO. TBD
William Castro,
Petitioner(s),
v.
R. Fred Lewis et al.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the WILLIAM CASTRO PETITION
FOR WRIT OF CERTIORARI contains 5897 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Dan Abramovich

December 19, 2019
SCP Tracking: Castro-7754 SW 66 Street-Cover White

